No. 19-120

In the Supreme Court of the United States
____________
IBG LLC and Interactive Brokers LLC,
Petitioners,
v.
Trading Technologies International, Inc.,
Respondent.
____________
On Petition for a Writ of Certiorari to
United States Court of Appeals for the
Federal Circuit
____________
Supplemental Brief Under Rule 15.8
Supporting Petition for a Writ of Certiorari
____________
ROBERT E. SOKOHL
Counsel of Record
BYRON L. PICKARD
RICHARD M. BEMBEN
WILLIAM H. MILLIKEN
Sterne, Kessler, Goldstein & Fox, PLLC
1100 New York Avenue, N.W.
Washington, D.C. 20005
(202) 371-2600
rsokohl@sternekessler.com
Counsel for Petitioners

i
RULE 29.6 STATEMENT
Pursuant to Supreme Court Rule 29.6, Petitioner
IBG LLC states that its parent corporations are
Interactive Brokers Group, Inc. and IBG Holdings,
LLC. Petitioner Interactive Brokers LLC states that
its parent corporation is IBG LLC.

ii
TABLE OF CONTENTS
RULE 29.6 STATEMENT........................................... i
TABLE OF CONTENTS ............................................ ii
SUPPLEMENTAL BRIEF IN SUPPORT OF
PETITION FOR A WRIT OF CERTIORARI ....... 1
SIPCO ISSUED AFTER THE PETITION WAS
FILED ................................................................... 1
SIPCO SUPPORTS GRANTING THE PETITION . 2
CONCLUSION ........................................................... 3
APPENDICES
APPENDIX A: Sipco, LLC v. Emerson Electric Co.,
2019 WL 4656205 (Fed. Cir. Sept. 25, 2019) .......... 1a

iii
TABLE OF AUTHORITIES
Page(s)
Cases
SightSound Techs., LLC v. Apple Inc.,
809 F.3d 1307 (Fed. Cir. 2015) ..............................3
Sipco, LLC v. Emerson Electric Co.,
2019 WL 4656205 (Fed. Cir. Sept.
25, 2019) .........................................................1, 2, 3
Versata Dev. Grp., Inc. v. SAP Am., Inc.,
793 F.3d 1306 (Fed. Cir. 2015) ..............................3
Statutes
37 C.F.R. § 42.301(b) ...............................................1, 2
Leahy-Smith America Invents Act, Pub.
L. No. 112-29, 125 Stat. 284 § 18(d) .......................1, 2

SUPPLEMENTAL BRIEF IN SUPPORT OF
PETITION FOR A WRIT OF CERTIORARI
Petitioners IBG LLC and Interactive Brokers
LLC (collectively, “IBG”) respectfully submit this
supplemental brief, pursuant to Rule 15.8, in
support of their Petition for a Writ of Certiorari to
call the Court’s attention to Sipco, LLC v. Emerson
Electric Co., 2019 WL 4656205 (Fed. Cir. Sept. 25,
2019), which was not available at time the Petition
was filed. (Supp. App. A)
The Sipco decision supports a grant of certiorari
because it deepens the intra-circuit split regarding
the question presented in the Petition: whether a
patent that does not satisfy the first prong of
§42.301(b)—that is, that does not recite a novel and
non-obvious
technological
feature—claims
a
“technological invention” under AIA § 18(d). (Pet. at
i.) The Sipco panel correctly held that both prongs of
the definition must be satisfied for the technologicalinvention exception to apply.
SIPCO ISSUED AFTER THE PETITION WAS
FILED
On September 25, 2019, in Sipco, the Federal
Circuit reversed a Patent Trial and Appeal Board
ruling that a patent in a CBM review did not satisfy
the second prong of the technological invention
definition. The court then remanded the case for the
Board to decide whether the first prong of the
definition was met—thus confirming that both

2
prongs of the inquiry must be satisfied for definition
to apply. Supp. App. 30a.
The Board in Sipco had found that the involved
patent was eligible for CBM review because it
recited apparatuses “used in a. . . . financial product
or service” and was not drawn to a technological
invention under 37 C.F.R. § 42.301(b). Id. at 18a.
The Board ruled that the patent did not fall within
the technological-invention definition because, under
the second prong of the test, the patent “did not
provide a technical solution to a technical problem”
Id. at 7a. Having decided that the second prong was
not met, the Board did not address the first prong of
the definition. Id. at 28a.
The Federal Circuit reversed the Board’s finding
as to the second prong of the technological-invention
test and remanded the case to the Board to decide
the first prong of that test. Id. at 28a. That remand
was necessary because, in the Sipco panel’s view,
both elements of the technological-invention
definition must be met for a patent directed to a
financial service or product to be excepted from CBM
review. In the words of Sipco, “[i]f each part of [the
technological invention test] is satisfied, then the
patent is not eligible for CBM review.” Id. at 21a.
SIPCO SUPPORTS GRANTING THE
PETITION
Sipco supports a grant of the Petition for two
reasons.

3
First, Sipco underscores the continuing intracircuit split on the issue of whether the first prong of
the technological-invention test must be satisfied for
the exception to apply. Pet. at 16-18 (comparing
Versata Development Group, Inc. v. SAP America,
Inc., 793 F.3d 1306 (Fed. Cir. 2015), with
SightSound Techs., LLC v. Apple Inc., 809 F.3d 1307
(Fed. Cir. 2015)). Sipco by its own terms squarely
states that both prongs must be met. Supp. App. at
4a-7a. But Sipco did not acknowledge the conflict in
Federal Circuit cases on this point, including
Versata’s decision to “[p]ut[] this part of the
regulation’s definition aside.” Versata, 793 F.3d at
1326-27. Having failed to recognize this tension,
Sipco naturally does not resolve it. To be sure, the
Federal Circuit has spoken with similar clarity on
this issue in SightSound, but that did not impede
the panel below from following Versata and
disregarding the first prong. SightSound, 809 F.3d
at 1314-1315; Versata, 793 F.3d at 1326-27.
Second, Sipco was correctly decided on this point.
The Sipco panel’s analysis confirms that the Federal
Circuit panel in this case erroneously skipped over
the first prong of the technological-invention
definition. Pet. at 19.
CONCLUSION
For these reasons, and for those in the Petition,
IBG respectfully requests that the Court grant the
petition for certiorari.

4
Respectfully submitted,
ROBERT E. SOKOHL
Counsel of Record
BYRON L. PICKARD
RICHARD M. BEMBEN
WILLIAM H. MILLIKEN
Sterne, Kessler, Goldstein & Fox,
PLLC
1100 New York Avenue, N.W.
Washington, D.C. 20005
(202) 371-2600
rsokohl@sternekessler.com
Counsel for Petitioners

APPENDICES

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
_____________________
SIPCO, LLC
Appellants
v.
EMERSON ELECTRIC CO.
Appellee
_____________________
2018-1635
_____________________
Appeals from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
No. CBM2016-00095.
--------------------------------------------_____________________
Decided: January 16, 2018
_____________________
JAMES R, BARNEY, Finnegan, Henderson,
Farabow, Garrett & Dunner, Washington, DC,
argued for appellants. Also represented by KELLY
LU, GREGORY J. GONSALVES, Gonsalves Law Firm,
Falls Church, VA.

2a
DOUGLAS HALLWARD-DRIEMEIER, Ropes & Gray
LLP, Washington, DC, argued for appellee. Also
represented by JAMES RICHARD BATCHELDER, JAMES
LAWRENCE DAVIS, JR., EAST, East Palo Alto, CA.
_____________________
Before O’MALLEY, REYNA, and CHEN, Circuit
Judges.
Opinion concurring-in-part and dissenting-in-part
filed by Circuit Judge REYNA.
Opinion dissenting filed by Administrative Patent
Judge PETRAVICK.
CHEN, Circuit Judge.
SIPCO, LLC (SIPCO) appeals a final written
decision of the Patent Trial and Appeal Board
(Board) in a covered business method (CBM) review
of its U.S. Patent No. 8,908,842 (’842 patent). After
instituting CBM review, the Board found claims 1, 7,
9, 16, and 17 of the ’842 patent ineligible for patent
protection under 35 U.S.C. § 101 and unpatentable
for obviousness under 35 U.S.C. § 103. SIPCO
appeals these findings, as well as the Board’s
determination that the ’842 patent was subject to
CBM review. In determining that the ’842 patent
qualifies for CBM review, the Board found that the
patent is not excluded from review under the
statutory “technological invention” exception. See
America Invents Act (AIA) § 18(d). Under 37 C.F.R. §

3a
42.301(b), the Board must consider “whether the
claimed subject matter as a whole recites a
technological feature that is novel and unobvious
over the prior art; and solves a technical problem
using a technical solution.” Applying just the second
part of this regulatory standard, the Board here
found that the patent contained no technical solution
to a technical problem. We reverse the Board’s claim
construction of “low power transceiver” and its
finding that the ’842 patent does not satisfy the
second part of the regulation defining “technological
invention.” § 42.301(b). Because the Board did not
address the applicability of § 42.301(b)’s first part,
we vacate and remand for consideration consistent
with this opinion.
BACKGROUND
1.

The ’842 Patent

The ’842 patent, based on a provisional application
filed in 1997, explains that there are a variety of
circumstances in which it is desirable to
communicate information from a previously
unconnected, remote device to a central location. ’842
patent at col. 1, ll. 43–45. Rather than set up a direct
communication link from the remote device to the
central location, however, the invention of the ’842
patent sets up a two-step communication path
through a set of intermediate nodes that takes
advantage
of
the
nodes’
already-provided
communications link (e.g., a public-switched
telephone network (PSTN)) to the central location.
Id. at claim 1. The claimed invention completes the

4a
communication path by having the remote device
communicate wirelessly to an intermediate node. For
example, a user may wish to replace the bank and
credit cards he or she carries with a remote
transmitting unit, similar to an automobile remote
key, that has one or more buttons each associated
with a bank or credit card. Id. at col. 5, ll. 9–64.
When the user depresses the button, the remote
transmitter transmits the user’s banking card
account and PIN information to, for example, the
ATM. Id. at col. 5, ll. 43–61. The ATM then
transmits the information over, for example, a PSTN
to the central location for verification. Id. at col. 7, ll.
41–44.
In implementing this two-step system, the inventors
recognized problems that arose. Id. at col. 5, l. 67 –
col. 6, l. 11. For example, contention between two or
more remote devices communicating at the same
time caused more distantly located users to
circumvent closer users. Id. at col. 6, ll. 4–7. In
addition, an interloper could unlawfully intercept
the electromagnetic signals carrying sensitive data.
Id. at col. 6, ll. 7–11. To alleviate these problems, the
’842 patent recites the use of a low-power remote
transmitter, which the specification explains would
require the user to be in “close proximity,” “e.g.,
several feet,” in order for the user to be able to use it.
Id. at col. 5, l. 67 – col. 6, l. 11.
The parties do not dispute the Board’s treatment of
claim 1 as representative. Claim 1 recites the
following:

5a
1. A device for communicating information, the
device comprising:
a low-power transceiver configured to
wirelessly transmit a signal comprising
instruction data for delivery to a network of
addressable devices;
a low-power transceiver configured to
wirelessly transmit a signal comprising
instruction data for delivery to a network of
addressable devices;
an interface circuit for communicating with
a central location; and
a controller coupled to the interface circuit
and to the low-power transceiver, the
controller
configured
to
establish
a
communication link between at least one
device in the network of addressable devices
and the central location using an address
included in the signal, the communication link
comprising one or more devices in the network
of addressable, the controller further
configured to receive one or more signals via
the low-power transceiver and communicate
information contained within the signals to
the central location.
Id. at claim 1. Dependent claims 3 and 4 are
particularly relevant to this appeal:
3. The device of claim 2, wherein the remote device

6a
is a [sic] associated with a vending machine.
4. The device of claim 2, wherein the remote device
is associated with an Automated Teller Machine
(ATM).
Id. at claims 3, 4.
2. Board’s Institution Decision
In July 2016, Emerson Electric Co. (Emerson) filed a
petition requesting CBM review of the ’842 patent
on, inter alia, §§ 101 and 103 grounds. Emerson
argued that the challenged claims were directed to
the patent-ineligible abstract idea of “establishing a
communication route between two points to relay
information.” J.A. 215. According to Emerson, “[t]his
concept has been practiced for centuries in
applications such as the Postal Service, Pony
Express, and telegraph, where a route is established
to relay mail or other communications from one
point to another.” Id. Emerson also argued that the
’842 patent was unpatentable for obviousness over
U.S. Patent No. 5,157,687 (Tymes). J.A. 261.
The Board instituted on both grounds. J.A. 432. In
its institution decision, the Board analyzed whether
the ’842 patent qualified as a “covered business
method patent” under AIA § 18(d)(1), which defines
the term as “a patent that claims a method or
corresponding apparatus for performing data
processing or other operations used in the practice,
administration, or management of a financial

7a
product or service, except that the term does not
include patents for technological inventions.” The
Board determined that claim 3—associating the
device with a vending machine—and claim 4—
associating the device with an ATM—recited
apparatuses “used in the practice, administration, or
management of a financial product or service” under
§ 18(d)(1). J.A. 387–89.
The Board then determined that the patent was not
drawn to a “technological invention.” The Board
applied its regulation 37 C.F.R. § 42.301(b), which
provides a two-part test for determining whether a
patent is for a “technological invention”: “whether
the claimed subject matter as a whole recites a
technological feature that is novel and unobvious
over the prior art; and solves a technical problem
using a technical solution.” The Board explained that
both parts of the regulation must be satisfied in
order to exempt the patent from CBM review. J.A.
390. Because the Board concluded that the patent
did not provide a technical solution to a technical
problem and therefore did not meet part two, the
Board did not analyze part one. J.A. 390–92.
Citing the Patent Office’s 2012 Office Patent Trial
Practice Guide, the Board focused on the features of
claim 1, as incorporated in dependent claims 3 and 4,
and determined that they are no more than generic
and known hardware elements and routine computer
functions. J.A. 390–91. The Board found that “[t]he
only wireless transmission required by claims 3 and
4 is a signal from a low-power transceiver,” which

8a
the Board noted was well-known in the art at the
time of the invention. J.A. 391. The Board stated
that the problem being solved by the ’842 patent was
the financial problem of reducing the cost of having
to dispatch service personnel to fix these machines
frequently, rather than a technical problem. J.A.
392. Ultimately finding that the features from claim
1 were not drawn to a technical solution to a
technical problem and, therefore, not drawn to a
“technological invention,” the Board determined that
the ’842 patent was subject to CBM review. J.A.
392–93.
The Board construed, among other terms, “lowpower transceiver.” J.A. 396–99. Emerson did not
provide a construction in its petition; SIPCO
proposed a construction that specified that the
transceiver “transmits and receives signals having a
limited transmission range.” J.A. 397. SIPCO
supported its proposed construction with citations to
the patent and an exhibit showing that the FCC discusses “low-power” transceivers in a manner that
limits their range to “a few meters.” J.A. 397–98.
The Board disagreed with SIPCO’s proposed
construction, finding that the term “low-power” as
used in claim 1 did not necessarily require that the
device transmit and receive signals only within a
“limited transmission range.” J.A. 398.
The Board also declined to limit the term based on
the discussion of low-power transmitters found in
columns five and six of the specification, because
that discussion related to “extremely low-power

9a
transmitters” rather than “low-power transceiver[s].”
J.A. 398–99. The Board dismissed the FCC
document cited by SIPCO because the sentence
discussing low-power transmitters described the
distance between people and consumer products, not
the low-power transmitters’ transmission range. J.A.
399 (quoting J.A. 2791 (“At any time of day, most
people are within a few meters of consumer products
that use low-power, non-licensed transmitters.”)).
The Board ultimately agreed that the construction
should “encompass” a device that “transmits and
receives signals having a limited transmission
range” but declined to limit its construction to that
phrase. Id.

3. Board’s Final Written Decision
The Board’s final written decision reiterated its
analysis with respect to whether the ’842 patent was
subject to CBM review. J.A. 6–20. The Board also
explained that after institution, SIPCO filed a
statutory disclaimer of claims 3 and 4 under 35
U.S.C. § 253 and argued that the disclaimed claims
“cannot form the basis for a ruling that the ’842
patent is a [CBM] patent,” as the ’842 patent should
be “treated as though the disclaimed claims never
existed,” citing language found in Guinn v. Kopf, 96
F.3d 1419, 1422 (Fed. Cir. 1996) (“A statutory
disclaimer under 35 U.S.C. § 253 has the effect of
canceling the claims from the patent and the patent
is viewed as though the disclaimed claims had never
existed in the patent.”). The Board disagreed with

10a
SIPCO, finding that the “belated post-institution
disclaimer of claims 3 and 4” did not affect its
conclusion that the ’842 patent is subject to CBM
review. J.A. 8. The Board cited a precedential Board
CBM decision in which it had previously explained
that “CBM patent review eligibility is determined
based on the claims of the challenged patent as they
exist at the time of the decision whether to institute.”
Id. (citing Facebook, Inc. v. Skky, LLC, Case
CBM2016-00091, slip op. 11, 2017 WL 4349404
(P.T.A.B. Sept. 28, 2017) (Paper 2) (precedential))
(emphasis added by the Board). The Board also
pointed out that AIA §§ 18(a)(1)(E) and 18(d)(1) use
the present tenses of words “institute” and “claims,”
implying that a patent is subject to CBM review
based on what the patent claims at the time of the
institution decision, not some later time after
institution. J.A. 8–9. The Board noted that it would
not have considered claims 3 and 4 if SIPCO had
timely filed a disclaimer before institution and
observed that Emerson would still have had the
ability to file for inter partes review of the ’842
patent before the one-year statutory bar of 35 U.S.C.
§ 315(b) had SIPCO done so. J.A. 10.
With respect to the technological invention
exception, the Board cited the statement in Versata
Development Group, Inc. v. SAP America, Inc., 793
F.3d 1306, 1327 (Fed. Cir. 2015) that “the presence
of a general purpose computer to facilitate
operations through uninventive steps does not
change the fundamental character of an invention”
to support its conclusion that “[a] claim does not

11a
include a technological feature if its elements are
nothing more than general computer system
components used to carry out the claimed process.”
J.A. 17 (internal quotation marks omitted). The
Board then reiterated its determination that the
features of claim 1 as incorporated in dependent
claims 3 and 4 “recite no more than generic and
known hardware elements and routine computer
functions,” and that the problem being solved, which
the Board characterized as “[a]utomating service
requests of vending machines and ATMs,” was a
financial, not technological, problem. J.A. 18–19.
The Board maintained its “low-power transceiver”
construction, concluding that SIPCO was conflating
“power” with “transmission range.” J.A. 23. The
Board also credited Emerson’s expert’s testimony
that a change in power does not necessarily result in
a change in transmission range, because the range
depends on numerous factors including the signal
frequency and environment. J.A. 24–25.
The Board concluded that the challenged claims
were patent-ineligible under § 101 because they were
directed to the abstract concept of “establishing a
communication route between two points to relay
information” and did not contain any additional
inventive concept. J.A. 30–45. The Board
emphasized its view that the ’842 patent merely
automated service requests using general purpose
devices such as low-power transceivers. J.A. 32. The
Board noted that, “[s]ignificantly, the claims are not
directed to a new type of transceiver, interface

12a
circuit, or controller to establish a communication
link between a remote device and the central
location,”; “[i]nstead, the claims are directed to
transmitting
data
between
locations
using
conventional or generic computer components.” J.A.
33.
The Board also found, inter alia, the ’842 patent
obvious over Tymes. SIPCO appeals the Board’s
determination that the ’842 patent is subject to CBM
review, as well as the Board determinations as to §§
101 and 103. We have jurisdiction pursuant to 28
U.S.C. § 1295(a)(4)(A).

DISCUSSION

1. “Low-Power Transceiver” Construction
We review factual determinations concerning
extrinsic evidence underlying the Board’s claim
construction for substantial evidence and the
ultimate construction de novo. In re Cuozzo Speed
Techs., LLC, 793 F.3d 1268, 1280 (Fed. Cir. 2015).
To the extent the Board considered extrinsic
evidence when construing the claims, we need not
consider the Board’s findings on that evidence

13a
because the intrinsic record is clear. See Eidos
Display, LLC v. AU Optronics Corp., 779 F.3d 1360,
1365 (Fed. Cir. 2015).
The Board correctly applied Phillips v. AWH Corp.,
415 F.3d 1303, 1312 (Fed. Cir. 2005) (en banc),
rather than the broadest reasonable interpretation
standard, when construing terms of this expired
patent. J.A. 21; see also In re Rambus Inc., 694 F.3d
42, 46 (Fed. Cir. 2012). Phillips explains that “[i]t is
a bedrock principle of patent law that the claims of a
patent define the invention to which the patentee is
entitled the right to exclude.” 415 F.3d at 1312
(internal quotation marks omitted). “While not an
absolute rule, all claim terms are presumed to have
meaning in a claim.” Innova/Pure Water, Inc. v.
Safari Water Filtration Sys., Inc., 381 F.3d 1111,
1119 (Fed. Cir. 2004). In Innova, we rejected a
construction that read the term “operatively” out of
the phrase “operatively connected,” explaining that
the construction was not correct because “the term
‘operatively’ [would be] unnecessary and superfluous
as the patentee could have as easily used the term
‘connected’ alone.” Id.
The dispute between the parties is whether “lowpower” is properly read, in light of the specification,
to correlate with limited transmission range. We
conclude that the Board’s construction in this case
fails to give appropriate meaning to the term “lowpower” in “low-power transceiver.” “Importantly, the
person of ordinary skill in the art is deemed to read
the claim term not only in the context of the

14a
particular claim in which the disputed term appears,
but in the context of the entire patent, including the
specification.” Phillips, 415 F.3d at 1313. The
specification explains that the reason that the ’842
patent contemplates a transmitter1 having low
power is “so that a user will have to be in close
proximity, (e.g., several feet) to the receiver 18 of an
AFTM 10 in order to use the transmitter.” ’842
patent at col. 5, l. 67 – col. 6, l. 3. It is only if the
signal transmission is limited in range that the
problems of unwanted circumvention, contention,
and unlawful interception of the electromagnetic
signals described in column six are alleviated. See id.
at col. 6, ll. 4–9.
We recognize here, as we did in Phillips, “that the
distinction between using the specification to
interpret the meaning of a claim and importing
limitations from the specification into the claim can
be a difficult one to apply in practice.” Phillips, 415
F.3d at 1323. However, “the line between construing
terms and importing limitations can be discerned
with reasonable certainty and predictability if the
court’s focus remains on understanding how a person
of ordinary skill in the art would understand the

The specification explains that a transceiver contains both
a transmitter and receiving circuitry, and the parties do not
dispute that only the transmitter portion of the “low-power
transceiver” is used in claim 1. See ’842 patent at col. 8, ll. 7–9,
claim 1. Accordingly, we find that the specification’s disclosure
of a “low-power transmitter” is coextensive with claim 1’s
recitation of “low-power transceiver.”
1

15a
claim terms.” Id. SIPCO’s specification explicitly ties
the low-power transceiver to a limited transmission
distance; accordingly, a skilled artisan would
understand “low-power” to mean that the transceiver
operates at a power level corresponding to “limited
transmission range2.”
Emerson contends that the specification’s discussion
of a limited transmission range for its transmitter
does not apply to the claimed “low-power
transceiver” because that discussion uses the word
“extremely” before low-power. But the specification
is consistent with our construction, because it
repeatedly ties the low-power transmitter to having
a limited transmission range. See, e.g., ’842 patent at
col. 5, l. 67 – col. 6, l. 3 (“Preferably, the transmitter
20 is an extremely low power transmitter, so that a
user will have to be in close proximity, (e.g., several
feet) to the receiver ....”); id. at col. 6, ll. 4–11 (“This
extremely low-power operation also helps to prevent
the unlawful interception of the electromagnetic
signals.”); id. at col. 14, ll. 15–21 (“... it may be
desirable to use a cellular transmitter, instead of a
low-power RF transmitter ... because the automobile
may break down a relatively significant distance

The dissent states that this construction introduces
ambiguities as to how much distance and how much power
correspond to “limited transmission range.” Dissent at ––––.
But the parties did not allege, and the Board did not find that
the meaning of “limited transmission range,” or even “lowpower,” was uncertain.
2

16a
from the nearest pay-type telephone (e.g., location of
the nearest transceiver).”). The word “extremely”
specifies the amount of distance by which the
transmission is limited—e.g., “several feet.”
The specification’s description of a cellular
transmitter being capable of transmitting a further
distance than a low-power transmitter reinforces
this conclusion. See id. at col. 14, ll. 15–21.
The Board placed considerable emphasis on Dr.
Geier’s expert testimony that “low-power” is not
necessarily coextensive with a limited transmission
range. See J.A. 23–25. But in this case, the intrinsic
evidence is sufficiently clear as to the meaning of
“low-power” such that consulting extrinsic evidence
is unnecessary. See Phillips, 415 F.3d at 1317. In
any event, Dr. Geier’s testimony was less than
conclusive, and both he and Emerson’s other expert,
Dr. Heppe, testified that one (according to Dr.
Heppe, “typical”) characteristic of a low-power
transmitter is a limited transmission range, and that
characteristic is consistent with the only described
use in the specification. See J.A. 2937–38 (Dr. Geier);
J.A. 3152–53 (Dr. Heppe). Moreover, the record also
contains evidence that supports a relationship
between limited transmission range and low
transmit power. See J.A. 3046 (disclosing the Friis
equation, which defines transmission distance as a
function of the square root of transmitted power);
J.A. 3149-50 (Dr. Heppe testifying that “signal level,
generally speaking, decays as one over the square
distance”).

17a
Accordingly, we reverse the Board’s construction of
“low-power transceiver” and construe it to mean “a
device that transmits and receives signals at a power
level corresponding to limited transmission range.”

2. Financial Product or Service
“[W]e review the Board’s reasoning [as to whether
the particular patents at issue are CBM patents]
under the arbitrary and capricious standard and its
factual determinations under the substantial
evidence standard.” SightSound Techs., LLC v.
Apple Inc., 809 F.3d 1307, 1315 (Fed. Cir. 2015). The
parties do not dispute that only one claim must meet
the requirements of § 18(d)(1) in order for the patent
to be considered a CBM patent. See Apple, Inc. v.
Ameranth, Inc., 842 F.3d 1229, 1239 n.6 (Fed. Cir.
2016).
We find that the Board’s conclusion that claims 3
and 4 recite an apparatus “for performing data
processing or other operations used in the practice,
administration, or management of a financial
product or service” under AIA § 18(d)(1) was not
arbitrary and capricious. We have previously
interpreted “the definition of ‘covered business
method patent’ [not to be] limited to products and
services of only the financial industry, or to patents
owned by or directly affecting the activities of
financial institutions such as banks and brokerage

18a
houses.” Versata, 793 F.3d at 1325. Rather, we have
found that § 18(d)(1) “on its face covers a wide range
of finance-related activities.” Id. In Versata, we
found the “method and apparatus for pricing
products in multi-level product and organizational
groups” to be sufficiently “used in the practice,
administration, or management of a financial
product or service” to subject the patent to CBM
review. Id. at 1311, 1325–26.
We placed some limitation on the scope of CBM
review in Unwired Planet, LLC v. Google Inc., 841
F.3d 1376 (Fed. Cir. 2016), where the Board had
found a patent relating to a “method and system for
managing location information for wireless
communications devices” to be subject to CBM
review because, in the Board’s view, “the [recited]
‘client application’ may be associated with a service
provider or a goods provider, such as a hotel,
restaurant, or store” and therefore the patent was
“incidental to” or “complementary to” the financial
activity of service or product sales. Id. at 1378–79.
We held that the Board’s reliance on activities
merely “incidental to” or “complementary to” a
financial activity rendered meaningless the limits
placed by Congress on CBM review. Id. at 1382. For
example, “[t]he patent for a novel lightbulb that is
found to work particularly well in bank vaults does
not become a CBM patent because of its incidental or
complementary use in banks.” Id. “Likewise, it
cannot be the case that a patent covering a method
and corresponding apparatuses becomes a CBM
patent because its practice could involve a potential

19a
sale of a good or service[, because] [a]ll patents, at
some level, relate to potential sale of a good or
service.” Id. Nor is a patent for “digging ditches”
subject to CBM review simply because the dirt can
subsequently be sold. Id.
SIPCO likens its ’842 patent to the examples
provided in Unwired Planet, arguing that the
claimed device is only “associated with” an ATM or
vending machine and the “mere possibility that
certain remote devices of the ‘842 patent could
communicate financial data is not nearly sufficient
to demonstrate that it is directed to financial
products or services.” SIPCO’s Op. Br. 59. But the
claimed apparatus need only be “used in” the
practice, administration, or management of a
financial product or service. See AIA § 18(d). As the
Board explained, claims 3 and 4 recite the remote
device being associated with an ATM or vending
machine. ’842 patent at claims 3, 4. The patent
expressly contemplates that the information
communicated through the claimed system is
financial information that identifies the user’s bank
account and the user’s identity. See, e.g., id. at col. 5,
ll. 40–64, col. 6, ll. 13–16. The Board is correct in its
assessment that the concept of communicating
financial information from a device associated with
an ATM to a central location is “central to the
operation of the claimed device” in claim 3. See J.A.
14–15 (citing ’842 patent at col. 1, ll. 43–65, col. 2, ll.
23–25, col. 3, ll. 12–14, col. 3, ll. 22–23, col. 4, ll. 32–
37, col. 6, ll. 19–28, FIGs. 1A, 5). We therefore do not
find that the Board abused its discretion when it

20a
determined that the claimed apparatus was “used
in” the practice, administration, or management of a
financial product or service.
SIPCO also argued before the Board and on appeal
that because it disclaimed claims 3 and 4 the Board
should not have relied on them in analyzing whether
the ’842 patent is CBM eligible. SIPCO’s Op. Br. at
62. But SIPCO ultimately conceded at oral argument
that a patent may be CBM eligible based on a single
claim and that the Board could have properly relied
on claims 3 or 4. Oral Arg. at 2:02–09, 5:24–51,
http://oralarguments.cafc.uscourts.gov/default.aspx?f
l=2018-1635.mp3.
Accordingly, the Board’s conclusion that the ’842
patent could be CBM eligible because claims 3 and 4
recite an apparatus “for performing data processing
or other operations used in the practice,
administration, or management of a financial
product or service” under § 18(d)(1) is not arbitrary
and capricious.

3. Technological Invention Exception
We review the Board’s reasoning as to whether the
’842 patent qualifies as a “technological invention”
under § 18(d)(1) under the arbitrary and capricious
standard and its factual determinations for
substantial evidence. SightSound, 809 F.3d at 1315.

21a
Section 18(d)(1) excludes “patents for technological
inventions” from CBM review. We previously
explained in Versata that, “[u]nhelpfully, Congress
did not ... define a ‘technological invention,’ but
instead instructed the USPTO to ‘issue regulations
for determining whether a patent is for a
technological invention,’ ” in order to assist in
implementing CBM review. Versata, 793 F.3d at
1323 (quoting § 18(d)(2)); see id. The Patent Office,
in turn, issued 37 C.F.R. § 42.301, which defines
“technological invention” in the following way:

In determining whether a patent is
for a technological invention solely
for purposes of the Transitional
Program for Covered Business
Methods (section 42.301(a)), the
following will be considered on a
case-by-case basis: [1] whether the
claimed subject matter as a whole
recites a technological feature that is
novel and unobvious over the prior
art; and [2] solves a technical
problem using a technical solution.
§ 42.301(b).
If each part of this definition is satisfied, then the
patent is not eligible for CBM review. We discuss
each part with respect to the ’842 patent below.

22a
a. Part Two
Because the Board misread and mischaracterized
the features of claim 1 in its analysis of dependent
claims 3 and 4, it did not appreciate that the claims
provide a technical solution to a technical problem.
Its ruling on this issue was thus arbitrary and
capricious.
We explained in Versata that § 42.301’s “[d]efini[tion
of] a term in terms of itself does not seem to offer
much help.” 793 F.3d at 1326. In fact, “neither the
statute’s punt to the USPTO nor the agency’s lateral
of the ball offer anything very useful in
understanding
the
meaning
of
the
term
‘technological invention.’ ” Id. In Versata, we
determined that a method of determining a price
that could be achieved “in any type of computer
system or programming or processing environment,”
and using “no specific, unconventional software,
computer
equipment,
tools
or
processing
capabilities” did not recite a technical solution to a
technical problem. Id. at 1327. Citing Alice Corp.
Pty. Ltd. v. CLS Bank International, 573 U.S. 208,
134 S.Ct. 2347, 189 L.Ed.2d 296 (2014), we stated
that “the presence of a general purpose computer to
facilitate operations through uninventive steps does
not change the fundamental character of [the]
invention.” Versata, 793 F.3d at 1327.
In Apple, we found a Board decision not to be
arbitrary and capricious where it determined that a
method of generating a second menu from categories

23a
and items selected from a first menu did not provide
a technical solution to a technical problem. 842 F.3d
at 1234, 1239–40. The patent owner had argued that
the patent was intended to solve “a problem in
restaurant ordering when customers wanted
something unusual and unanticipated.” Id. at 1239.
The Board found this to be more of a business
problem than a technical problem. Id.
In Trading Technologies, we found a Board decision
not to be arbitrary and capricious where it
determined that a software method for financial
trading, including receiving bid and offer
information and displaying the information to the
user, did not provide a technical solution to a
technical problem. Trading Techs. Int’l, Inc. v. IBG
LLC, 921 F.3d 1084, 1091 (Fed. Cir. 2019) (Trading
Techs. I); Trading Techs. Int’l, Inc. v. IBG LLC, 921
F.3d 1378, 1383 (Fed. Cir. 2019) (Trading Techs. II).
The patent owner argued that the patent addressed
technical problems relating to efficiency, speed,
usability, intuitiveness, and visualization of prior art
graphical user interface tools. Trading Techs. I at
1089; see also Trading Techs. II at 1383. We agreed
that the claims related to the practice of a financial
product—helping a trader gain a market
advantage—rather than a technological invention.
Trading Techs. I at 1089–90,; Trading Techs. II at
1383. Because the “invention ma[de] the trader
faster and more efficient, not the computer,” it was
not a technical solution to a technical problem.
Trading Techs. I at 1090 (emphasis in original); see
also Trading Techs. II at 1383.

24a
The question of whether a patent is for a
“technological invention” is fact-specific and must be
considered on a case-by-case basis. See § 42.301(b).
This case differs from those we have previously
analyzed because the problem solved by the claims is
technical in nature. The Board limited its
characterization of the “problem” being solved to an
example problem provided in the background that is
resolved by the claims—automating machine service
requests. See J.A. 19. But it is clear from both the
claims and the specification that the claimed
invention implements a communication system that
connects an unconnected, remote device with a
central station. See SIPCO’s Reply Br. at 22. The
claims do so by taking advantage of a set of
intermediate nodes (“a network of addressable
devices”) that are already connected to the central
station over an existing communication network, for
example PSTN. ’842 patent at claim 1. The first step
of the communication path from the user and remote
device to the intermediate node is made over a
wireless connection, and the second step is from the
intermediate node to the central station over the
existing communication network. Id.
In the context of leveraging an existing
communications
network
to
serve
as
an
intermediary for communication between a remote
device and a central location, however, the ’842
patent explains that certain problems arise in
communicating information at this first step, e.g.,
unlawful interference, contention, and unwanted
circumvention of the electromagnetic signals. Id. at

25a
col. 5, l. 65 – col. 6, l. 11. Accordingly, the technical
problem resolved by the claims was how to extend
the reach of an existing communication system from
a central location to a remote, unconnected device
while protecting against unwanted interference with
the transmitted signals. The claims solve this
problem with a technical solution: the creation of a
two-step communication system that communicates
information through a low-power, i.e., limited
transmission range, transceiver over a first, wireless
step, that taps into the intermediate node’s existing
network connection to transport information to the
central location. 3

Our decision in Chamberlain Group, Inc. v. Techtronic
Industries Co., 935 F.3d 1341, 2019 WL 3938278 (Fed. Cir.
2019) is not to the contrary. In Chamberlain, we determined
that claims re-citing wireless communication of status
information about a movable barrier operator (e.g., garage door
opener) were directed to an abstract idea of communicating
information wirelessly, and that the mere limitation of that
abstract idea to the field of movable barrier operators did not
constitute an inventive concept sufficient to transform the
abstract idea into a practical application of the idea under
Alice. Id. at –––– – ––––, 2019 WL 3938278, at *2–5. Unlike in
Chamberlain, SIPCO’s claimed invention does not simply use
“well understood,” off-the-shelf wireless technology for its
intended purpose of communicating information. See id., at –––
– – ––––, 2019 WL 3938278, at *4–5. Instead, SIPCO’s claim 1
provides a more specific implementation of a communication
scheme through its two-step communication path that
combines an established communications network with a shortrange wireless connection between a low-power transceiver and
an intermediate node on the established network. SIPCO’s twostep solution extends the reach of the existing network while
3

26a
Emerson maintains that even if the ’842 patent
solves this technical problem, it does so with
conventional components. But in that sense, this
case is similar to Bascom Global Internet Services,
Inc. v. AT&T Mobility LLC, 827 F.3d 1341 (Fed. Cir.
2016), which arose in a different context and
answered a different legal question but remains
instructive here. In Bascom, prior art systems either
located the Internet content filter at the user’s
computer and were customizable to the user but
easily thwarted by computer-savvy teenagers or
employees, or located the filter at a remote server
that could not be customizable to the user. Id. at
1343–45. The claimed invention took advantage of
the
technical
capability
of
the
TCP/IP
communication network and moved the filter to a
server operated by the Internet Service Provider
(ISP). Id. at 1344. Because the ISP could associate
an individual user with a specific request to access a
website, the claimed invention was able to provide
individual-customizable Internet content filtering
remotely, preventing it from being easily
circumvented by its users. Id. at 1344–45. We
determined that the claims were drawn to the
abstract idea of Internet content filtering under step
one of Alice’s § 101 analysis, but determined that
nothing in the record refuted Bascom’s argument

overcoming problems
interception.

of

interference,

contention,

and

27a
that the claims were drawn to an inventive concept
because they recited a “technology-based solution
(not an abstract-idea-based solution implemented
with generic technical components in a conventional
way) to filter content on the Internet that overcomes
existing problems with other Internet filtering
systems.” Id. at 1351. “By taking a prior art filter
solution (one-size-fits-all filter at the ISP server) and
making it more dynamic and efficient (providing
individualized filtering at the ISP server), the
claimed invention represents a ‘software-based
invention[ ] that improve[s] the performance of the
computer system itself.’ ” Id. “The claims [thus]
carve out a specific location for the filtering system
(a remote ISP server) and require the filtering
system to give users the ability to customize filtering
for their individual network accounts.” Id. at 1352.
We determined this to be the case despite the fact
that each piece of technology Bascom employed in its
invention, e.g., a computer, a server, was
conventional in nature. Id.
By implementing a two-step communication path
that takes advantage of both a wireless step from a
remote device to a set of intermediate nodes and
another step that may be, for example, over PSTN
from the intermediate nodes to the central location,
and also incorporating the use of a low-power
transceiver to overcome the technical problems of
interference, interception, and contention of
electromagnetic signals sent over the first, wireless
step, SIPCO’s invention is drawn to a technologybased solution, just as Bascom’s was. Because

28a
SIPCO’s claims combine certain communication
elements in a particular way to address a specific
technical problem with a specific technical solution,
we reverse the Board’s finding that the patent does
not satisfy the second part of its “technological
invention” regulation.

b. Part One
The Board did not analyze whether the ’842 patent
satisfies the first part of § 42.301(b) because it found
that the patent did not satisfy the second part.
Emerson concedes as much. Oral Arg. at 31:14–20.
Rather than address this issue in the first instance
on appeal, the Board should address the first part of
§ 42.301(b) under the proper construction. Robertson
v. Timmermans, 603 F.3d 1309, 1313 (Fed. Cir.
2010) (“[W]e think the better course is to give the
Board the opportunity to apply the correct law
rather than decide these issues ourselves in the first
instance.”).
Emerson argues that remand is unnecessary because
the Board already analyzed whether the ’842 patent
was obvious under § 103. But we have previously
questioned whether it makes sense to interpret the
first part of § 42.301(b)—which references the word
obvious—as coextensive with § 103. Most notably, in
Versata, we observed that “[a]t this early stage of the
process, when the USPTO is first determining

29a
whether the patent at issue is even a CBM, there
would seem to be little cause to determine what will
be one of the ultimate questions if review is
granted—did the USPTO err in the first instance
when it originally determined that the invention was
novel and nonobvious?” 793 F.3d at 1326. We
therefore decline to assume that this is how the
Board would apply § 42.301(b) in this case. Instead,
on remand the Board should explain what part one
of the regulation means and then apply it as so
explicated. 4

CONCLUSION
For the reasons stated above, we reverse the Board’s
construction of “low-power transceiver,” affirm the
Board’s finding that claims of the patent are “used in
... a financial product or service” under AIA §

The parties agree that the AIA does not define what is or
is not a technological invention. See, e.g., Oral Arg. at 9:10-9:39,
16:45–52 (“Q: Does the statute provide any guidance as to what
a technological invention is? A: Well, no your Honor.”); see also
AIA § 18(d). The omission of any definition for the phrase
“technological invention” underscores the importance of
meaningful guidance from the Patent Office on § 42.301(b). See
Kisor v. Wilkie, ––– U.S. ––––, 139 S. Ct. 2400, 2417 n.5, 204
L.Ed.2d 841 (2019) (emphasizing that regulations which
“parrot[ ] the statutory text” rather than putting the public on
notice of an agency’s interpretation in advance are not entitled
to deference).
4

30a
18(d)(1), and reverse the Board’s finding that the
patent does not “solve[ ] a technical problem using a
technical solution” under its regulation § 42.301(b).
Because part two of § 42.301(b) is satisfied, we
remand to the Board for consideration of part one
consistent with this opinion. Because the Board on
remand must revisit its decision as to whether the
’842 patent qualifies for the CBM review, we vacate
all of the Board’s unpatentability determinations.
We have considered the parties’ remaining
arguments and find them unpersuasive.

REVERSED-IN-PART, AFFIRMED-IN-PART,
AND VACATED-AND-REMANDED-IN-PART
No costs.

Reyna, Circuit Judge,
dissenting-in-part.

concurring-in-part

and

I respectfully dissent from the majority’s decision
that rejects the Board’s claim construction in favor of
its own construction. The record is clear in two
respects. First, the majority reaches its own
construction by improperly reading a functional
limitation into the claim from a preferred
embodiment. Second, the Board’s construction rests
on factual findings that are supported by substantial

31a
evidence, including expert testimony on the meaning
of the claim term “low-power transceiver” to a person
of ordinary skill in the art. In the end, the majority
does not explain why the Board’s construction is so
“clearly at odds with the claim construction
mandated by” the intrinsic record that the extrinsic
evidence on which the Board relied can be discounted entirely. Phillips v. AWH Corp., 415 F.3d
1303, 1318 (Fed. Cir. 2005). The majority explains
only that it prefers a different construction. Because
the majority’s opinion is contrary to basic tenants of
claim construction set forth in Phillips, and the
deference owed to underlying factual findings under
Teva, I respectfully dissent.

I.
To be sure, the parties disputed before the Board the
construction of the term “low-power transceiver.”
SIPCO argued that “low-power transceiver” should
be construed as a “transceiver that transmits and
receives signals having a limited transmission
range.” J.A. 22, 485. Emerson argued that the plain
and ordinary meaning of “low-power” should apply:
“a transceiver that consumes less power, e.g., by
transmitting and receiving low power signals.” J.A.
23, 588. Emerson further argued that SIPCO’s
construction impermissibly imports a “limited
transmission range” limitation into the claims. J.A.

32a
23, 588. Neither party proposed the construction now
adopted by the majority.
The Board addressed point-by-point the same
arguments that SIPCO advances on appeal. The
Board ultimately rejected SIPCO’s proposed
construction, finding that SIPCO’s arguments
conflated “power” with “transmission range.” J.A. 23.
For example, the Board considered SIPCO’s reliance
on a Federal Communications Commission bulletin
purportedly defining low-power transmitters as
having a range of only a few meters but found that
the bulletin did not support SIPCO’s argument after
examining that evidence. J.A. 26.
The Board adopted the plain and ordinary meaning
of
“low-power”
and
construed
“low-power
transceiver” as referring to a transceiver that
consumes less power. Id. This construction, the
Board concluded, encompasses a device that
transmits and receives signals having a limited
transmission range, but is not limited by that
feature. J.A. 26. The record evidence supports the
Board’s construction.
Notably, the Board received evidence and weighed
the testimony and credibility of SIPCO’s and
Emerson’s experts. The Board credited the testimony
of Emerson’s expert, James T. Geier, in making its
factual finding that a person of ordinary skill in the
art would have understood that changing the
transmission power does not necessarily change the
transmission range. J.A. 23 (citing J.A. 2655–58 ¶¶

33a
34–39 (Geier Rebuttal Decl.)); see also J.A. 25
(explaining that Mr. Geier’s cross-examination
testimony was consistent with his declaration
testimony on the fact that “changing the ‘power’ does
not necessarily change the ‘transmission range,’
which depends [sic] numerous factors, including the
signal frequency and environment”).

The majority rejects the plain and ordinary meaning
of “low-power transceiver” and reverses the Board,
construing the term to mean “a device that transmits
and receives signals at a power level corresponding
to limited transmission range.” Maj. Op. –––– – ––––
. The majority concludes that the meaning of “lowpower” is sufficiently clear in the intrinsic record to
make evaluation of the extrinsic evidence
unnecessary. Maj. Op. ––––. According to the
majority, the specification explains that the reason
for using low-power transmitters is so the user must
be in close proximity to the receiver to avoid the
problems of unwanted circumvention and unlawful
interception of the signals. Maj. Op. –––– – ––––.
The majority thus concludes that the “specification
explicitly ties the low power transceiver to a limited
transmission distance,” and that a person of
ordinary skill in the art would understand “ ‘lowpower’ to mean ‘having a limited transmission
range.’ ” Maj. Op. ––––. The majority goes on to
further conclude that the term “extremely” in the
phrase “extremely low-power” refers to the “amount
of distance by which the transmission is limited—

34a
e.g., ‘several feet.’ ” Maj. Op. ––––. (emphases in
original). And despite finding that the intrinsic
evidence is so clear that it does not need to consider
the Board’s factual findings, the majority proceeds to
reweigh the extrinsic evidence and make its own
factual findings, contrary to the Board’s. Maj. Op. ––
––. The majority’s newly proffered construction is
contrary to well-established claim construction
precedent.

II.
The majority errs in two ways: (1) by importing a
limitation—transmission range—into the claims
from a preferred embodiment; and (2) by
disregarding the Board’s factual findings without a
sufficiently clear intrinsic record.
First, the majority reaches its own construction of
“low-power transceiver” by relying on limitations
that are not in the claims. We have long held that
“even though ‘claims must be read in light of the
specification of which they are a part, it is improper
to read limitations from the written description into
a claim.’ ” Bradium Techs. LLC v. Iancu, 923 F.3d
1032, 1049 (Fed. Cir. 2019) (quoting Wenger Mfg.,
Inc. v. Coating Mach. Sys., Inc., 239 F.3d 1225, 1237
(Fed. Cir. 2001)); see also Silicon Graphics, Inc. v.
ATI Techs., Inc., 607 F.3d 784, 792 (Fed. Cir. 2010)
(“A construing court’s reliance on the specification
must not go so far as to import limitations into
claims from examples or embodiments appearing

35a
only in a patent’s written description [ ] unless the
specification makes clear that the patentee in-tends
for the claims and the embodiments in the
specification to be strictly coextensive.” (internal
quotations omitted)).
As the majority recognizes, we have noted the
difficulty in drawing a “fine line between construing
the claims in light of the specification and
improperly importing a limitation from the
specification into the claims.” Cont’l Circuits LLC v.
Intel Corp., 915 F.3d 788, 797 (Fed. Cir. 2019)
(quoting Retractable Techs., Inc. v. Becton, Dickinson
& Co., 653 F.3d 1296, 1305 (Fed. Cir. 2011)).
Nevertheless, “the line between construing terms
and importing limitations can be discerned with
reasonable certainty and predictability if the court’s
focus remains on understanding how a person of
ordinary skill in the art would understand the claim
terms.” Phillips, 415 F.3d at 1323.
The majority here loses that focus, crosses that line,
and, commits “one of the cardinal sins of patent
law—reading a limitation from the written
description into the claims.” Id. at 1320 (quoting
SciMed Life Sys., Inc. v. Advanced Cardiovascular
Sys., Inc., 242 F.3d 1337, 1340 (Fed. Cir. 2001)); see
also id. at 1321 (“[W]e have expressly rejected the
contention that if a patent describes only a single
embodiment, the claims of the patent must be
construed as being limited to that embodiment.”).
The majority’s construction (“a device that transmits

36a
and receives signals at a power level corresponding
to limited transmission range”) replaces the ordinary
meaning of the “power” limitation in the claim
language and instead ascribes a functional
limitation to “low-power transceiver” in terms of
transmission range, such that a low power
transceiver that transmits more than two feet—for
example, two and a half feet—is excluded. See Maj.
Op. –––– – ––––. To reach this conclusion, the
majority relies primarily on a single passage in the
written description describing a single preferred
embodiment depicted in Figure 1. As to this
embodiment, and in relevant part, the written
description states:

In use, a user would simply depress
a transmit button 22, which would
result in the transmitter 20
transmitting an electromagnetic
signal 30 to a remote AFTM 10[.]
Preferably, the transmitter 20 is an
extremely low power transmitter, so
that a user will have to be in close
proximity, (e.g., several feet) to the
receiver 18 of an AFTM 10 in order
to use the transmitter. This would
help alleviate problems which may
otherwise
occur
if
a
user
approaching an AFTM 10 is
circumvented by a second, more
distantly located user who depresses
his transmit button. This extremely

37a
low-power operation also helps to
prevent the unlawful interception of
the electromagnetic signals[.] In
addition,
in
an
alternative
embodiment, the transmitted signal
may be encrypted for further protect
[sic]
against
such
unlawful
interception.
’842 patent col. 5 l. 65–col. 6 l. 11 (emphases added).
This is the critical passage from which the majority
concludes that the written description links “lowpower” to having a “limited transmission range”
limitation. See Maj. Op. –––– – ––––. According to
the majority, “[i]t is only if the signal transmission is
limited in range that the problems of unwanted
circumvention,
contention,
and
unlawful
interception of the electromagnetic signals ... are
alleviated.” Maj. Op. ––––. But this is not correct
because
the
specification
recognizes
that
transmission need not be extremely low-power if the
transmission signal is encrypted. Thus, based on a
single “preferred” embodiment, the majority limits
the entire claim based on transmission range and
thereby alters the scope of the patent.1

The majority overlooks other embodiments in the
specification. Another embodiment is a vending machine
whereby the machine sends a signal to itself that is then
relayed to the central location that it, for example, is low on or
out of potato chips. See ’842 patent col. 7 l. 61–col. 9 l. 3. The
majority fails to explain why, in this embodiment, close
1

38a
The majority’s construction alters the scope by
removing the “low power” limitation from the claim
language and replacing it with a relationship
between power and transmission range extrapolated
from a preferred embodiment. In doing so, it
introduces at least three ambiguities.
First, the specification does not clearly define a
relationship between power and transmission range.
While the specification describes an embodiment
that relates “extremely low power” to the
requirement that a user be in close proximity, “e.g.,
several feet,” of the receiver, the specification is
silent on how a person of ordinary skill in the art
would understand “limited transmission range” and
power level. If, as the majority contends, “extremely”
specifies the “amount of distance,” it is unclear how
to objectively determine the distance required by
“limited transmission range” in the majority’s
construction where “extremely” is absent and
“several feet” is the sole example given for
transmission range. See Interval Licensing LLC v.
AOL, Inc., 766 F.3d 1364, 1373 (Fed. Cir. 2014)
(declining to “cull out a single ‘e.g.’ phrase from a
lengthy written description to serve as the exclusive
definition of a facially subjective claim term” and
holding that claim term to be indefinite). Second, the
proximity to the receiver is necessary to avoid unwanted
circumvention or unlawful interception of the potato chip
notification.

39a
relationship
between
power
and
“limited
transmission range” introduced by the majority’s
construction is not defined by the specification and is
ambiguous
because
it
allows
for
inverse
relationships or a relationship impacted by other
factors—so
long
as
“power”
and
“limited
transmission range” correspond in some way. In
other words, there is nothing to tell a person of
ordinary skill in the art a numerical value for the
transmission range that would result from a
“corresponding” numerical value for power level.
Third, the majority’s construction does not specify
whether the device is limited in the transmission
range of signals it transmits, or whether the device
also has limits on the transmission range of signals
it can receive. A construction that introduces such
ambiguities cannot be correct.
Here, the patentee chose to define the subject matter
of his invention in terms of “power,” and our law
gives him the freedom to do so. See Thorner v. Sony
Computer Entm’t Am. LLC, 669 F.3d 1362, 1367
(Fed. Cir. 2012) (“The patentee is free to choose a
broad term and expect to obtain the full scope of its
plain and ordinary meaning unless the patentee
explicitly redefines the term or disavows its full
scope.”). This is not a case where the patentee has
acted as his own lexicographer to ascribe a special
meaning to “low-power.” Indeed, the patentee
carefully stated the intent not to limit the claims by
making them strictly coextensive with descriptions
of embodiments and instead sought to “cover all
alternatives, modifications, and equivalents” of the

40a
claimed invention. ’842 patent col. 4 ll. 19–26; see
also id. col. 14 ll. 6–9. I therefore disagree with the
majority’s importation of results-oriented, functional
language from a preferred embodiment and
rewriting of the claim.
The Board correctly pointed out that none of the
claims contain functional language. J.A. 25. And
“[w]here the function is not recited in the claim itself
by the patentee, we do not import such a limitation.”
Ecolab, Inc. v. Envirochem, Inc., 264 F.3d 1358, 1367
(Fed. Cir. 2001). Limited range is not claimed as a
part of the invention, and neither is the function of
preventing unlawful interception of electromagnetic
signals.
Second, the Board’s factual findings are supported
by substantial evidence and require our deference.
See Teva Pharm. USA, Inc. v. Sandoz, Inc., 574 U.S.
318, 135 S. Ct. 831, 841–42, 190 L.Ed.2d 719 (2015).
How a person of ordinary skill in the art would
understand “low-power transceiver” was an issue of
disputed fact between the parties and their experts
that the Board properly resolved in construing the
term according to its plain and ordinary meaning
based on the evidence presented. See id. at 840
(“[C]laim
construction
has
evidentiary
underpinnings and ... courts construing patent
claims must sometimes make credibility judgments
about witnesses.” (internal quotations removed)). As
the Board found, “low-power” is not a complex term;
it has a well-understood plain meaning. In the
context of transmitters, it is a transmitter that

41a
consumes less power. See J.A. 23. By extension, the
Board relied on extrinsic evidence that the term
“low-power transceiver” is well known in the art and
carries an ordinary meaning of a “transceiver that
consumes less power.” Id.
The Board recognized that the use of low-power
transceivers can impact transmission range, but it
credited the testimony of Dr. Geier that the meaning
of “low-power transceiver” is not limited by this
feature. Dr. Geier testified that while you could have
less range with lower-power transmitters, the
transmission range depended on numerous other
factors, such as signal frequency, environment, and
sensor sensitivity. Dr. Geier testified that
transmission power does not necessarily result in a
change of the transmission range. The majority
rejects Dr. Geier’s testimony by reweighing the
evidence and making its own factual finding that his
testimony was “less than conclusive.” Maj. Op.––––.
But
whether
“power”
necessarily
affects
transmission range is a subsidiary issue of fact
resolved by the Board that requires our deference.
See Knowles Elecs. LLC v. Cirrus Logic, Inc., 883
F.3d 1358, 1362 (Fed. Cir. 2018) (noting that we
review the Board’s underlying factual findings based
on extrinsic evidence, such as expert testimony, for
substantial evidence).
Despite reweighing the extrinsic evidence itself, the
majority asserts that the intrinsic record is so clear
that the Board’s reliance on Emerson’s expert
testimony should be dismissed. Maj Op. ––––, ––––

42a
(citing Eidos Display, LLC v. AU Optronics Corp.,
779 F.3d 1360, 1365 (Fed. Cir. 2015) (“To the extent
the district court considered extrinsic evidence in its
claim construction order or summary judgment
order, that evidence is ultimately immaterial to the
out-come because the intrinsic record is clear.”)). It is
also true that we have held that we may affirm a
Board decision that is supported on the intrinsic
record alone. See Profectus Tech. LLC v. Huawei
Techs. Co., 823 F.3d 1375, 1381 (Fed. Cir. 2016)
(citing Cambrian Sci. Corp. v. Cox Commc’ns, Inc.,
617 F. App’x 989, 993 (Fed. Cir. 2015) (affirming
claim construction without addressing extrinsic
evidence because “the intrinsic evidence fully
determines the proper construction of the contested
claim term”)). Further, “[e]xtrinsic evidence may not
be used ‘to contradict claim meaning that is
unambiguous in light of the intrinsic evidence.’ ” Id.
(citing Phillips, 415 F.3d at 1324). But here, the
intrinsic record is not so clear. The term “low-power
transceiver” as used in the patent is susceptible to
more than one reasonable interpretation, the
majority’s construction is not unambiguously
supported by the intrinsic record, and the Board’s
construction is not contradicted by the claim
language or the intrinsic evidence.
In my view, the extrinsic record in this case is
particularly relevant to understand how a person of
ordinary skill in the art would understand the
disputed term at the time the patent issued. See
Teva, 135 S. Ct. at 841–42. This is particularly true
post-Aatrix, which restricted this court’s ability to

43a
decide legal issues and disregard existing underlying
factual disputes. See Aatrix Software, Inc. v. Green
Shades Software, Inc., 882 F.3d 1121, 1128 (Fed. Cir.
2018) (noting that in deciding questions of law “there
can be subsidiary fact questions which must be
resolved en route to the ultimate legal
determination”).
The majority’s claim construction analysis redefines
the term “low-power transceiver” by importing a
functional limitation from the written description
and introducing ambiguity into the claim. As a
result,
the
majority
construes
“low-power
transceiver” to mean a transceiver that can only
transmit and receive signals within a “limited
transmission range.” Maj. Op. –––– – ––––. This
rewriting of the claim alters the scope and recites an
invention that is different from the invention
claimed in the ’842 patent.
For the foregoing reasons, I dissent.
III.
While I disagree with the majority’s decision to
reverse on claim construction, I share the majority’s
concern about the Board’s avoidance of the first
prong of the regulatory definition of “technological
invention” under 37 C.F.R. § 42.301. Remand is
necessary so that the Board may in the first instance
interpret § 42.301(b)(1).

